DOE F 1325.8
(08-93)
United States Government                                                   Department of Energy

memorandum
          DATE:   November 17, 2010
   REPLY TO
    ATTN OF:      IG-40

    SUBJECT:      Letter Report on “Inspection of Allegations Relating to Irregularities in the Human
                  Reliability Program and Alcohol Abuse within the Office of Secure Transportation”
                  (INS-L-11-01, S09IS012/S09IS013)

    TO:           Assistant Deputy Administrator for Secure Transportation

                  The Office of Inspector General received a series of allegations concerning violations of the
                  Human Reliability Program (HRP) and alcohol abuse within the Office of Secure
                  Transportation (OST). Specifically, it was alleged that incidents involving violations of the
                  HRP were not reported as required, and that the HRP was not administered in a fair and
                  consistent manner. It was also alleged that alcohol abuse was a problem within OST and that
                  alcohol-related incidents involving current Agents assigned to various locations and Agent
                  Candidates at the OST training facility in Fort Chaffee, Arkansas, were some of the biggest
                  problems facing OST.

                  We initiated an inspection to determine the facts and circumstances relating to these
                  allegations. This report presents the results of our review.

                  BACKGROUND

                  OST conducts transportation missions in support of national security, including the secure
                  transportation of nuclear weapons, weapon components and special nuclear material through
                  the use of a professional force of Federal Agents. These Agents participate in a 21-week
                  Agent Candidate Training Program designed to assist them with preventing the theft,
                  sabotage or takeover of protected materials by unauthorized persons. These Agents also
                  participate in a security and safety reliability program (HRP) designed to ensure that they
                  meet the highest standards of reliability and physical and mental suitability.

                  RESULTS OF INSPECTION

                  Human Reliability Program

                  We did not substantiate the allegations that violations of the HRP occurred that were not
                  reported, as required, or that the HRP was administered in an unfair or inconsistent manner.
                  However, we did identify certain improvements in the administration of the HRP which
                  would, in our judgment, enhance the program. Specifically, these included improvements in
                  the areas of HRP certification, HRP re-certification, maintenance of derogatory information
                  files and processing of HRP disclosure forms.
HRP Certification. Department of Energy (DOE) Form 470.3, “Human Reliability
Program (HRP) Certification,” a key document in the HRP process, requires a
Supervisory Review, Medical Assessment, Management Evaluation and DOE Personnel
Security Review prior to the HRP Certifying Official signing the form. Our review of the
HRP files showed that in four instances, the HRP Certifying Official signed and dated the
form without ensuring the form included all of the required signatures. We were told by
an HRP official that the missing signatures were an oversight that would be corrected by
having the forms returned for appropriate signatures.

HRP Re-Certification. The OST “Human Reliability Program Implementation Plan”
establishes the guidelines for the OST HRP and requires that HRP re-certifications are
completed within 12 months. Our review of HRP files identified 17 HRP incumbents
that were not re-certified on time and, thus, should have been temporarily suspended
from HRP duties.

Derogatory Information. The OST HRP derogatory information files are to be controlled
and stored in accordance with DOE-50, “Human Reliability Program Records.” We
determined that OST HRP administrative staff did not know the number or exact
locations of these files, had not conducted an inventory of these files nor had they
developed a master list of such files. Under the circumstances, it was impossible to
verify the status of the file inventory with any degree of certainty.

Disclosure Forms. The “Human Reliability Program Disclosure Form” used by the
Personnel Security Division at the National Nuclear Security Administration (NNSA)
Service Center is to be signed and dated when HRP file reviews are completed. We
identified 30 forms that did not contain the required signatures and dates.

During our inspection, we discussed these issues with OST HRP and Personnel Security
Division staff, and we were told that corrective actions would be initiated.

Alcohol-Related Incidents

We did substantiate specific alcohol-related incidents within OST involving current Agents
and Agent Candidates. While OST appeared to have been proactive in addressing the use of
alcohol, concerns expressed by some OST managers and the number of alcohol-related
incidents occurring over the last three years suggests that further action may be needed.

Specifically, a review of OST documentation and interviews confirmed the occurrence of
16 alcohol-related incidents involving OST Agents, Agent Candidates and other personnel
from 2007 through 2009. To put this situation in some perspective, the 16 alcohol-related
incidents experienced by OST from 2007 through 2009 were from a total population of
approximately 597 OST Agents, Agent Candidates and other personnel. Of the 16 incidents,
2 were of the greatest concern because they occurred during secure transportation missions
while the Agents were in Rest Overnight Status, which occurs during extended missions
where convoy vehicles are placed in a safe harbor and Agents check into local area hotels. In
2007, an Agent was arrested for public intoxication, and, in 2009, two Agents were


                                        2
handcuffed and temporarily detained by police officers after an incident at a local bar. OST
management took what appeared to be appropriate action in these cases. However, in our
judgment, alcohol incidents such as these, as infrequent as they may be, indicate a potential
vulnerability in OST’s critical national security mission.

To assist with managing the ongoing challenges over the use of alcohol, OST has developed
a comprehensive approach under OST “Policy Number: 2.06 B, Alcohol Testing Program.”
This policy includes several provisions relating to alcohol use by OST Agents, to include the
following:

   •   Agents are subject to testing for the use of alcohol at least once every 12 months
       or when there is reasonable suspicion of alcohol use;

   •   Any Agent who has been determined to have an alcohol concentration of 0.02 or
       greater must be sent home;

   •   Annual alcohol awareness briefings are conducted; and,

   •   There are prohibitions on the consumption of alcohol within 10 hours preceding
       scheduled work.

Also, during roll-call while in mission status, OST Convoy Commanders ask the Agents if
they are fit for duty. The Agents are required to tell the Convoy Commander if they are not
fit for any reason, including any reason related to alcohol use. When alcohol-related
incidents have occurred, OST officials told us that they have taken immediate action to
include removal of Agents from mission status.

In addition, OST has addressed concerns over the use of alcohol by Agent Candidates at Fort
Chaffee through a series of initiatives, to include:

   •   Providing numerous briefings on the misuse of alcohol during an Agent
       Candidate’s initial training;

   •   Specifying an eight-hour restriction for consuming alcohol prior to reporting for
       duty;

   •   Restricting consumption of alcohol to dormitory premises only (exclusive of the
       front entrances and parking lot), and prohibiting Agent Candidates from
       possessing kegs of beer or quantities of alcohol in excess of what is reasonable for
       personal use; and,

   •   Maintaining an informal designated driver program for Agent Candidates.

During the Agent Candidates briefings, a “zero tolerance” for alcohol incidents is discussed.
Although not specified in the Agent Candidate’s handbook, we were informed that the Agent



                                         3
Candidates are told that there can be no arrests or detentions related to alcohol during the
training program. If an incident occurs, the individual is removed from the training program.

Despite these steps, OST management indicated that it remains concerned about the number
of alcohol-related incidents involving Agents and Agent Candidates, and is considering a
wide variety of administrative remedies. We share this concern and believe that further
action may be needed. The following suggested actions are provided.

SUGGESTED ACTIONS

Human Reliability Program

In order to improve the administration of the HRP, we suggest that the Assistant Deputy
Administrator for Secure Transportation ensure that:

   1. DOE Form 470.3, “Human Reliability Program Certification,” is properly
      completed prior to the certifier signing the document.

   2. HRP re-certifications are completed within 12 months.

   3. Derogatory information files are controlled and stored consistent with the
      guidance under DOE-50, “Human Reliability Program Records.”

In addition, we suggest that the Assistant Deputy Administrator for Secure
Transportation, in coordination with the Personnel Security Division, ensure that:

   4. The “Human Reliability Program Disclosure Form” is signed and dated at the
      time of review.

Alcohol-Related Incidents

Also, to assist with opportunities for improving policies and procedures related to alcohol use
by OST Agents, Agent Candidates and other personnel, we suggest that the Assistant Deputy
Administrator for Secure Transportation:

   5. Determine whether more aggressive actions, similar to the zero tolerance policy
      for Agent Candidates, is warranted in order to address concerns expressed by
      OST Management.

Since we are not making any formal recommendations in this report, a formal response is not
required.




                                         4
We appreciate the cooperation we received from your staff during our inspection. If you
have any questions concerning this inspection, please contact Mr. Richard W. Curran,
Director, Western Inspection Region, Office of Inspections and Special Inquiries, at
(505) 845-5153.




                                             Sandra D. Bruce
                                             Assistant Inspector General
                                               for Inspections and Special Inquiries
                                             Office of Inspector General

Attachment

cc: Administrator, National Nuclear Security Administration, NA-1
    Director, Policy and Internal Controls Management, NA-66
    Director, Office of Risk Management, CF-80
    Team Leader, Office of Risk Management, CF-80
    Audit Resolution Specialist, CF-80




                                       5
                                                                        Attachment


SCOPE AND METHODOLOGY

This inspection was performed from March 2009 to September 2010 at selected locations
within OST. To accomplish the objectives of this allegation based inspection, we:

   •   Reviewed Code of Federal Regulations and OST policy concerning the HRP;

   •   Reviewed records, files and documentation concerning HRP violations and alcohol
       abuse within OST;

   •   Reviewed and evaluated OST policies and procedures concerning the alcohol testing
       program; and,

   •   Interviewed Department, NNSA, and OST officials, as well as Agents regarding HRP
       and alcohol abuse issues within OST.

This inspection was conducted in accordance with the Council of the Inspectors General on
Integrity and Efficiency “Quality Standards for Inspections” issued by the President’s
Council on Integrity and Efficiency, January 2005.




                                           6
